@QCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-138

DONALD J. TRUMP,
PRESIDENT OF THE UNITED STATES, et al.,
Petitioners,

Vv.

SIERRA CLUB, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF DEFENDERS OF
WILDLIFE, CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL LEGAL DEFENSE FUND,
CALIFORNIA WILDERNESS COALITION, RIO GRANDE INTERNATIONAL STUDY
CENTER, THE CARRIZO/COMECRUDO NATION OF TEXAS, MR. JOSEPH HEIN, MS.
ELSA HULL, AND DR. RAMIRO RAMIREZ AS AMICI CURIAE IN SUPPORT OF
RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7630 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of January, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska : / A Chi
: RENEE J. GOSS 9. .

 

My Comm. Exp. September 5, 2023
Notary Public Affiant 40476
